Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




        Nurse Aide Training




                    JANET REHNQUIST
                    Inspector General

                     NOVEMBER 2002
                      OEI-05-01-00030
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                      EXECUTIVE                            SUMMARY

PURPOSE

          To determine whether nurse aide training prepares nurse aides for their jobs in nursing homes.


BACKGROUND

          Nurse aides are the front-line workers in nursing homes. The well-being of a nursing home
          resident depends not only on the skills of the nurse aide, but also on the relationship that
          develops between the nurse aide and the resident. Federal regulations require that all nurse
          aides, who work in nursing homes that participate in Medicare and Medicaid, complete a
          State-approved training program, pass a competency exam, and receive certification from the
          State in which they are employed. State-approved training programs must be a minimum of 75
          hours and include 16 hours of supervised clinical training. To maintain certification, all nurse
          aides must complete 12 hours of continuing education annually.

          We reviewed the Federal nurse aide training requirements as mandated in the Omnibus Budget
          Reconciliation Act of 1987 (OBRA 87). We examined factors affecting nurse aide training by
          obtaining data about current State nurse aide training requirements from 48 States and the
          District of Columbia. We compiled responses from nearly 1,000 nurse aides. We interviewed
          29 nursing home administrators and nurse supervisors (hereinafter referred to as nursing home
          supervisors), 14 nurse aide trainers, 5 long-term care ombudsmen, 3 academicians, and 5
          experts in the field. Overall, we held discussions with 39 licensed or registered nurses from the
          different respondent groups.



FINDINGS

Nurse aide training has not kept pace with nursing home industry needs

          Approximately 90 percent of our respondents (nursing home supervisors, nurse aide trainers,
          State ombudsmen, State directors of nurse aide training programs, and experts) reported that
          the medical and personal care needs of today’s nursing home residents have




Nurse Aide Training                                   i                                  OEI-05-01-00030
          changed since implementation of OBRA 87. We held discussions with nursing home staff and
          experts who indicated that compared to nursing home residents 15 years ago, today’s nursing
          home residents are older, sicker, require more assistance with activities of daily living, and take
          more medications. Approximately half of the nursing home supervisors we interviewed, and 61
          percent of State directors of nurse aide training programs believe that nurse aide training has not
          kept pace with demands of the changing care needs of nursing home residents.

          Nurse aides need more skill training on behavior and cognitive disorders, catheter care,
          colostomy care, lifting, feeding, hydration, and infusion therapies. They also need more training
          in interpersonal skills, including communication, teamwork, coping with death and dying, time
          management, and new technologies.

Teaching methods are often ineffective, clinical exposure is too short and
unrealistic

          Although Federal law requires that State-approved nurse aide training programs consist of at
          least 75 hours of total instruction, 26 States have already extended their training programs
          beyond 75 hours. Eighteen of twenty-nine nursing home supervisors reported that nurse aides
          were not ready to begin work on the nursing home floor upon completion of nurse aide training.
          Fifty percent of nurse aides we surveyed reported a lack of “hands on” experience and
          unrealistic training scenarios.

In-service training may not be meeting Federal requirements

          We had difficulty determining whether nursing homes are meeting the Federal requirement that
          in-service training address areas of weakness for individual nurse aides. Besides recording the
          number of hours of completed in-service training, there are no other documentation
          requirements in the Federal regulations for in-service training.



RECOMMENDATION

          Responses from 29 nursing home supervisors, 14 nurse aide trainers, 5 long-term care
          ombudsmen, 3 academicians, and 5 experts (39 of all these respondents were licensed or
          registered nurses) show that the nurse aide training curriculum needs to be updated, and clinical
          experience needs to occur earlier and needs to be more realistic. Responses from nearly 1,000
          nurse aides and 48 State directors of nurse aide training programs also indicate that nurse aide
          training programs need improvement. Although the nursing home


Nurse Aide Training                                   ii                                  OEI-05-01-00030
          environment has changed considerably since OBRA 87 nurse aide training regulations
          were implemented, nurse aide training has not kept pace with nursing home resident needs.

          We are recommending that CMS:

          Improve nurse aide training and competency evaluation program
          requirements

          •	          Ensure that the content of the nurse aide training curriculum and testing (as described in
                      42 CFR Part 483) remains relevant to today’s complex resident care needs.
                      Strengthen nurse aide training by recognizing current nurse aide needs and by
                      embracing modern technologies and equipment. Consider enhancing the
                      communication and interpersonal skills of nurse aides (i.e., by including training in time
                      management and teamwork).

          •	          Continue to work with States to assure that nurse aide training is effective and efficient.
                      This collaborative effort could include (but not be limited to) increasing the ratio of
                      clinical hours and ensuring that clinical experience occurs earlier in the training period, is
                      more realistic, and includes a full range of skills needed on the job.

          •	          Ensure that nursing homes are in compliance with in-service training requirements.
                      Revise 42 CFR §483.75 to include a requirement that nursing homes document that in-
                      service training is conducted to address weaknesses identified in nurse aides’
                      performance reviews.



AGENCY COMMENTS

The draft of this report was reviewed by CMS, and the agency concurred with our recommendations.
In concurring with our recommendations, CMS stated that the agency’s own independent study
reached essentially the same conclusions as found in our study. The CMS reports that the agency has a
contract in place to examine nurse aide training curriculum, content, and skills. The CMS also intends
to develop specific policy and programmatic options for improving the administration of nurse aide
training programs and for ensuring that nursing home in-service training complies with regulatory
requirements. The full text of CMS’ comments can be found in Appendix A.




Nurse Aide Training                                        iii                                   OEI-05-01-00030
                           TABLE                       OF              CONTENTS


                                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Training has not kept pace            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Clinical exposure and teaching methods are often inadequate . . . . . . . . . . . . . . . . . . . . . . 12


          In-service training may not meet Federal requirements                          . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


CONCLUSION AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


          A: Centers for Mediare & Medicaid Services Response to Report . . . . . . . . . . . . . . . . . . . 19


          B: Characteristics of Participating Nursing Homes                        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


          C: Demographics of Nurse Aide Respondents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


          D: Hours of Training by State               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                                     INTRODUCTION



PURPOSE

          To determine whether nurse aide training prepares nurse aides for their jobs in nursing homes.


BACKGROUND

          Nurse aides are healthcare workers in various settings, such as hospitals, home care, and
          nursing homes. In long-term care nursing homes, nurse aides assist residents in their activities of
          daily living, such as bathing, dressing, eating and toileting. Nurse aides also tend to the
          psychological, social, and spiritual needs of residents. Because a nurse aide’s primary duty is
          direct care, they are often the first to identify changes in a resident’s condition. Some nursing
          home administrators liken nurse aides to “the eyes and ears” of the facility.

          Nurse aides must also demonstrate a professional attitude and behavior to enhance
          communication between herself/himself and the resident, the resident’s family members and
          nursing home staff. The scope of duties for nurse aides varies among States and also among
          nursing homes within a State.

Federal Training Requirements

          The Omnibus Budget Reconciliation Act of 1987 (OBRA 87) mandated the Nurse Aide
          Training and Competency Evaluation Program (NATCEP) to establish minimum requirements
          for nurse aide competency. Nursing homes participating in Medicare and Medicaid may not
          employ anyone as a nurse aide for more than four months, unless the individual has completed a
          State-approved nurse aide training program and passed a competency exam. 1 Federal
          regulations require that the training:

          •           Consist of no less than 75 hours;



          1
              42 CFR §483.75(e)(2)



Nurse Aide Training                                       1                             OEI-05-01-00030
          •	          Be performed by, or under the general supervision of, a registered nurse who has a
                      minimum of 2 years of nursing experience, at least 1 year of which must be long-term
                      care;
          •           Include hours in certain nursing skill areas; and
          •	          Include at least 16 hours of supervised practical training [hereinafter referred to as
                      “clinical” training].

          Some States have chosen to require additional hours of classroom and clinical training. For
          more information, see our Office of Inspector General companion report on “State Nurse Aide
          Training: Program Information and Data”.2

          For classroom training, Federal regulations require instruction in the following areas:

          <	          Basic nursing skills--includes taking and recording vital signs; measuring and recording
                      height and weight; caring for the resident’s environment; recognizing and reporting
                      abnormal changes in body functioning; and caring for the dying resident.
          <	          Personal care skills--includes bathing, grooming, dressing, toileting and skin care;
                      assisting with eating (proper feeding techniques) and hydration; and transferring,
                      positioning and turning.
          <	          Mental health and social service skills--includes responding to a resident’s behavior;
                      raising awareness of developmental tasks associated with the aging process; allowing
                      the resident to make personal choices; and using the resident’s family as a source of
                      emotional support.
          <	          Caring for cognitively impaired residents--includes addressing the behaviors of
                      residents with dementia; and communicating and responding to residents with cognitive
                      impairments.
          <	          Basic restorative skills--includes training the resident in self care; using assistive
                      devices in transferring, ambulation, eating and dressing; maintaining range of motion;
                      proper turning and positioning in bed and chair; bowel and bladder training; and caring
                      for and using prosthetic and orthotic devices.
          <	          Residents’ rights--includes providing privacy and maintenance of confidentiality;
                      promoting residents’ rights to make personal choices to accommodate their needs;
                      giving assistance in resolving grievances and disputes; providing needed assistance in
                      getting to and participating in resident and family groups and other activities; maintaining
                      care and security of residents’ personal possessions; promoting the resident’s right to
                      be free from abuse, mistreatment, and neglect,


          2
               OEI-05-01-00031



Nurse Aide Training                                        2                                OEI-05-01-00030
                      and the need to report any instances of such treatment to appropriate nursing home
                      staff; and avoiding the need for restraints.3

          During clinical training, under the direct supervision of a registered or licensed practical nurse,
          the nurse aide trainee must demonstrate knowledge while performing tasks on an individual,
          such as taking vital signs of one of their fellow students. Upon completion of training, a nurse
          aide trainee must pass a State exam to become certified to work in a nursing home. As
          required by the regulations, the exam must include a written or oral component and a skills-
          demonstration component. Candidates for certification must pass both components.

Continuing Education Requirement

          The OBRA 87 also mandates that nursing homes provide regular in-service education for nurse
          aides. Specifically, the regulations require a nursing home to complete a performance review of
          every nurse aide at least once every 12 months. Using the performance reviews, nursing homes
          must provide regular in-service education to address identified needs. The in-service training
          must:

          <	          Be sufficient to ensure the continuing competence of nurse aides, but must be no less
                      than 12 hours per year;
          <	          Address areas of weakness, as determined in nurse aides’ performance reviews, and
                      may address the special needs of residents as determined by the facility staff; and
          <           Address aides providing services to individuals with cognitive impairments.4

          States may develop their own, more stringent, requirements for in-service education. As a
          result, States vary as to the number of in-service hours and topics they require.

The Centers for Medicare & Medicaid Services

          The Centers for Medicare & Medicaid Services (CMS) is responsible for establishing and
          enforcing regulatory requirements designed to ensure that nursing homes that participate in
          Medicare and Medicaid meet specific criteria (called Conditions of Participation) that are




          3
              42 CFR §483.152

          4
              42 CFR §483.75



Nurse Aide Training                                      3                                OEI-05-01-00030
          designed to ensure resident health, safety, and quality of care.5 The CMS also is responsible
          for establishing the regulatory standards for State nurse aide training programs and providing
          funding for nurse aide training programs sponsored by nursing homes.6 According to
          information from CMS, a total of $45.5 million was spent for nurse aide training in Fiscal Year
          2000.7 Approximately $20.2 million of this total was paid by the Federal government. The
          remaining funds were paid by State governments. Oversight and enforcement of the nurse aide
          training regulatory requirements are left to the States.8

          The CMS contracts with State agencies to certify long-term care nursing homes to participate
          in the Medicare and Medicaid programs. These State agencies also are responsible for
          surveying nursing homes to ensure that they continue to meet both Federal and State
          requirements. As part of their nursing home survey, State surveyors review facility records to
          ensure that nurse aides employed in the nursing home have completed their nurse aide training
          and are certified by the State. Generally, these records are reviewed only when surveyors have
          severe quality of care concerns or observe incorrect performance by a nurse aide.

The States’ Oversight of Nurse Aide Training

          The States have responsibility for approving nurse aide training programs. State NATCEP
          directors oversee nurse aide training programs and the administration of the competency exams.
          State NATCEP directors are charged with periodically recertifying all training programs and
          conducting on-site visits to ensure that they continue to adhere to Federal and State
          requirements. The director also may be in charge of the State’s nurse aide registry, which is a
          repository of information about nurse aides certified to work in the State.

          States have considerable freedom in developing nurse aide training programs. They determine
          the total hours of training required (as long as the 75-hour minimum is met). They may develop
          training manuals and curricula or approve those developed by the private or public sector.
          States also have considerable latitude in the administration of exams. States may administer
          exams directly or contract for this service. Thirty-two States hire private subcontractors to
          administer their State nurse aide exams. The remaining 17 States use their own staff or work




          5
              P.L.100-203 §4201(f)(1)


          6
              P.L. 100-203 §4201(f)(2)(A)(i)


          7
              Based on Medicaid Financial Management Reports (HCFA-64) for FY 2000. 


          8
              42 CFR §§483.152 - 483.158

Nurse Aide Training                                          4                          OEI-05-01-00030
          with other State or private entities to administer the State exams.9

          Training programs may be either facility-based (i.e., in a nursing home) or non-facility based,
          such as in a community college, vocational-technical school, high school, or private school.
          States report fees for non-facility based training ranging from a low of $190 to a high of
          $9,372.

Changes in Long-Term Care Environment

          There have been many changes in the long-term care environment since passage of OBRA 87.
          Today, long-term care not only includes nursing homes, but also home care, personal care
          homes and assisted living facilities. Healthcare policy changes that encourage shorter hospital
          stays have created a niche whereby nursing homes are providing sub-acute care that was
          previously provided in a hospital setting.10

          Longitudinal data suggests that acuity levels and complexity of care for elderly long-term care
          users have increased over time. The National Long-Term Care Survey11 indicates that in 1984,
          35.4 percent of elderly long-term care users required assistance with 3 to 6 activities of daily
          living (ADLs)12 and 33.7 percent were cognitively impaired. In 1999, 75 percent of nursing
          home residents required assistance with three or more ADLs.13 Data from 2001 indicate that
          almost 60 percent of nursing home residents had moderately or severely impaired cognitive
          skills.14

Other Studies

          Several other studies have examined the subject of nurse aides in nursing homes. These studies
          have mainly focused on staffing issues. The Institute of Medicine published two reports in this


          9
               Two State NATCEP directors did not respond to our survey.

          10
               The Characteristics of Long-Term Care Users, AHRQ Research Report, January 2001.

          11
               The National Long-Term Care Survey, Center for Demographic Studies, Duke University.

          12
              ADLs are activities related to personal care and include bathing or showering, dressing, getting in and
out of bed or a chair, getting around inside, using a toilet, and eating.

          13
             Jones A. The National Nursing Home Survey: 1999 summary. National Center for Health Statistics. Vital
Health Stat 13(152).2002.

          14
               The Centers for Medicare & Medicaid Services, Minimum Data Set, 2001.

Nurse Aide Training                                              5                                         OEI-05-01-00030
          area. The first, “Nursing Staff in Hospitals and Nursing Homes: Is It Adequate?” (1996)
          looked at the evolving role of nurses in the health care system. The second, “Improving the
          Quality of Long-Term Care” (2001), identified problem areas, and offered recommendations
          for strengthening the caregiving workforce. The General Accounting Office provided testimony
          related to the current and projected supply of nurse aides in their report entitled “Nursing
          Workforce: Recruitment and Retention of Nurses and Nurse Aides Is a Growing Concern”. 15
          This report included full demographic descriptions of nurse aides and a portrayal of current
          salary issues. The CMS issued a report to Congress entitled, “Appropriateness of Minimum
          Nurse Staffing Ratios in Nursing Homes” (2001) which examined nurse aide training. That
          report, in its examination of nursing home staff turnover and retention, described the relationship
          between nurse staffing levels and the quality of care in nursing homes.



SCOPE AND METHODOLOGY

Pre-Inspection

          We conducted extensive pre-inspection work in three States16 to gain background knowledge
          and learn about pertinent issues in nurse aide training. We met with the State NATCEP
          directors, nursing home administrators, licensed and registered nurses, nurse aides, nurse aide
          trainers, and long-term care ombudsmen during our pre-inspection visits to these three States.
          We also met with CMS regional and headquarters staff and attended conferences sponsored
          by a national nurse aide association and the Agency for Healthcare Research and Quality. We
          also interviewed representatives from industry and association groups. One team member
          attended a full day of nurse aide training.

Inspection Process

          Throughout the inspection process, we systematically gathered both quantitative and qualitative
          data from the different stakeholder groups to identify issues and learn their perspectives of nurse
          aide training. We used three methods for collecting data in this inspection. First, we gathered
          information from NATCEP directors in 48 State agencies and the District of Columbia.
          Twenty of the NATCEP directors identified themselves as registered nurses. Two State
          NATCEP directors did not respond to our request for information. We collected detailed
          information about nurse aide training requirements and numbers of hours of training in their
          States. We gathered information about the various curriculum and clinical requirements in their

          15
               GAO-01-750T

          16
               Missouri, Ohio, and Wisconsin

Nurse Aide Training                                    6                                OEI-05-01-00030
          State and the State’s role in oversight of these training programs. We received information on
          updates to training course content since the implementation of OBRA 87. We also received
          suggestions from these State directors based on their years of experience in the field on whether
          any improvements needed to be made to the nurse aide training curriculum.

          Second, we conducted site visits in five States: Florida, Louisiana, Minnesota, New York, and
          Washington. States were selected following discussions with CMS staff and experts. States
          were also selected based on geographic location, nursing home population, and State budgets
          for nursing home care. These site visits were conducted during June and July 2001. We
          systematically held discussions with State NATCEP directors, State long-term care
          ombudsmen, nursing home supervisors and nurse aide trainers in each of the five States.

          In each State, we selected five or six nursing homes, based on criteria, such as bed size, type of
          ownership (for-profit/not-for-profit), location (urban/suburban/rural), and the presence of
          facility-based training. In each nursing home, we administered structured discussion guides with
          the nursing home administrator and nurse supervisor (hereinafter referred to as nursing home
          supervisor) as well as two to four nurse aides. We found out whether nurse aide training needs
          are met at the individual nursing homes, whether nurse aide training curricula can be improved,
          and whether nurse aides are prepared for their first day on the job after they complete their
          training.

          Appendix B contains descriptive information of the nursing homes we visited. During our on-
          site visits, we gathered information systematically to assess quality of current nurse aide training
          and to determine whether improvements need to be made to nurse aide training programs.
          Whenever possible, we met with experts and members of academia to get their perceptions of
          nurse aide training programs. Overall, we met with 29 nursing home supervisors, 14 nurse aide
          trainers, 3 academicians (two of whom are actively involved in the education of nurse aides and
          registered nurses), and 5 experts. Of these respondents, 39 identified themselves as licensed or
          registered nurses.

          Third, we surveyed nurse aides. To elicit the opinions of a large number of nurse aides, we
          mailed ahead surveys and return envelopes for each nurse aide in each nursing home that we
          visited. We sent 2,639 surveys to nurse aides working in the 29 nursing homes that we visited
          and obtained 889 completed surveys. Response rates ranged from               0 to 100 percent
          for each nursing home.

          We analyzed the response rates to see if they differed based on the size of the nursing home
          (small and large) or type of ownership (for-profit and not-for-profit/government), and found no
          significant differences in response rates. Using the SAS statistical software, we conducted a t-
          test to test the statistical significance of the difference between response rates from the nursing
          homes based on size and type of ownership. Appendix C contains demographic information

Nurse Aide Training                                    7                                OEI-05-01-00030
          about the nurse aides who responded to our survey. Since we did not conduct a random
          sample of nurse aides, any statements regarding the responses we received cannot be
          generalized to the entire population of nurse aides working in nursing homes.

          Overall, we obtained information from nearly 1,000 nurse aides. In addition to the 889 nurse
          aides who completed our written survey, we interviewed 92 nurse aides. We also conducted a
          focus group with17 nurse aides. The focus group occurred in June 2001. Topics of discussion
          included how well the training prepared them for the job, and what content areas needed to be
          better addressed. We collected information on specific skills that were lacking from their nurse
          aide training, since many years had passed and they had acquired many years of experience at
          nursing homes since their original training. In addition to those areas of nurse aide training that
          they rated as deficient or poor, participants also identified other areas in which they still need
          training,

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Nurse Aide Training                                    8                                OEI-05-01-00030
                                        FINDINGS

          According to an Institute of Medicine report, nurse aide training is an essential element in the
          provision of quality care to nursing home residents. Nurse aides make up the largest proportion
          of caregiving personnel in nursing homes and provide most of the direct care to residents.
          Nursing homes that participate in Medicare and Medicaid cannot employ anyone as a nurse
          aide for more than four months, unless the individual has completed a State-approved training
          program, passed a competency exam, and received certification by the State in which they are
          employed.

          We examined factors affecting nurse aide training by obtaining data about current State nurse
          aide training requirements from 48 States and the District of Columbia. We compiled
          responses from nearly 1,000 nurse aides. We interviewed 29 nursing home supervisors, 14
          nurse aide trainers, 5 long-term care ombudsmen, 3 academicians, and 5 experts in the field.
          Overall, we held discussions with 39 licensed or registered nurses from the different respondent
          groups. Based on this evidence, we found that nurse aide training has not kept pace with
          nursing home industry needs; training hours, clinical exposure, and teaching methods are often
          inadequate; and in-service training may not always meet Federal requirements.



Nurse aide training has not kept pace with nursing home
industry needs

          Although approximately 70 percent of State NATCEP directors (33 of 48 who responded to
          our question) said that their States had updated nurse aide training curriculum requirements
          since implementation of OBRA 87, 61 percent (30 of 49 State directors) believe there are still
          training needs that are not being met in their States. All of our respondent groups identified
          areas in which the training did not meet the needs of the current nursing home industry.

Training does not meet needs of current nursing home residents

          Approximately 90 percent of our respondents (nursing home supervisors, nurse aide trainers,
          State ombudsmen, NATCEP directors, and experts) said that the medical and personal care
          needs of today’s nursing home residents have changed since implementation of OBRA 87.
          Recent research on the characteristics of nursing home




Nurse Aide Training                                  9                                OEI-05-01-00030
          residents supports our respondents’ opinions.17 Shorter hospital stays have resulted in nursing
          homes seeing more residents who are sicker and who require more care.

          In addition, new healthcare settings for the elderly population, including home care and assisted
          living facilities, have delayed entry into nursing homes. Consequently, nursing home residents
          are much older, require more help with their ADLs, and take more medications than nursing
          home residents of 15 years ago. Although the overall nursing home population is older, our
          respondents also report an increase in the number of younger nursing home residents. Many of
          these younger residents have chronic conditions, such as multiple sclerosis or a traumatic brain
          injury.

          More than half (63 percent) of the nursing home supervisors we interviewed said that training
          has not kept pace with the care demands imposed by current resident diagnoses. Many of
          these supervisors pointed out that they are seeing more combative and violent residents.
          Accordingly, we were told that nurse aides need more training on caring for residents with
          behavioral and cognitive disorders, such as Alzheimer’s disease. Six State NATCEP directors
          specifically emphasized the need for more training in this area.

          The need for training related to caring for residents with greater needs was voiced also by nurse
          aides and trainers. Specific skills mentioned by nurse aides include: catheter and colostomy
          care, lifting (e.g. Hoyer lift), skin care, feeding, hydration, infusion therapies, and dealing with
          behavioral problems. Nurse aide trainers and supervisors point to the need for more
          information on specific diseases, such as diabetes, pneumonia, and cancer. These respondents
          further commented that nurse aides also need knowledge of medical equipment used by
          residents, such as feeding tubes and ventilators.

Training does not adequately address interpersonal skills

          Nearly half (48 percent) of the nursing home supervisors we interviewed explained that it is not
          only the medical needs, but the psycho-social needs, that are lacking in nurse aide training. This
          involves training on communicating with residents, awareness of the aging process and treating
          “residents as people, not just bodies.”

          One out of every four nurse aides who responded to our survey reported that there were skill
          areas they used frequently on the job that their initial training did not adequately address. These
          nurse aides have worked in nursing homes for an average of 3.5 years. After they began
          working, they realized that training did not prepare them for skills


          17
            Sayhoun NR, Pratt LA, Lentzner H, Dey A, Robinson KN. The Changing Profile of Nursing Home
Residents: 1985-1997. Aging Trends; No.4. Hyattsville, Maryland: National Center for Health Statistics. 2001.


Nurse Aide Training                                         10                                     OEI-05-01-00030
          associated with caring for nursing home residents. Examples of interpersonal skills that nurse
          aides mentioned as lacking in their initial training include time and stress management,
          teamwork, developing relationships with residents, and coping with death and dying.

          Nationally, nurse aides care for 10-15 residents on a shift. Nurse aides told us they have
          difficulty finding enough time to deliver quality care to all of the residents entrusted to them.
          This problem is exacerbated when one or more nurse aides do not report to work or positions
          remain unfilled.

          Almost seventy percent of nurse aides responding to our survey question on death and dying
          reported experiencing the death of a resident at some time during their work week, and half of
          these reported experiencing a resident death on every shift or almost every shift. The nurse
          aides we spoke with in-person said that they were not prepared for helping residents at the end
          of life, and often felt helpless in reducing their pain and making them comfortable. Nurse aides
          also talked about their own difficulty in dealing with the grief they experienced when a resident
          under their care had passed away. Based on our conversations with nurse aides, it appears that
          some training programs cover the topic of death and dying in more detail than others. To
          address this issue, one nursing home that we visited is conducting a demonstration program
          consisting of 45 hours of training in end-of life care.

Training has not kept pace with nursing home practices and new technologies

          During our discussions with nursing home supervisors, nurse aides, and nurse aide trainers, we
          learned that nurse aide training curriculum and testing may not reflect the current practice in
          nursing homes. The nursing home supervisors we spoke with mentioned that a lot more
          technology is being used in nursing homes today than a decade ago. These supervisors and the
          experts we spoke with agree that nurse aides need training on newer technologies during their
          initial training. A 1996 Institute of Medicine report states that medical technologies, such as
          intravenous feedings, ventilators, and oxygen, are now being used extensively in nursing homes.
          Previously, these medical technologies were available only in a hospital setting. The report
          further noted that these services require more nursing care, judgment, and supervision than in
          the past.

          Nurse aides told us that they were taught outdated practices and how to use outdated
          equipment. They believe that the time spent learning these obsolete skills could be better spent
          on skills needed to care for today’s nursing home residents. They specifically mentioned that
          time would be better spent not only on resident care skills but also on communication,
          teamwork, and advances in disease treatment.




Nurse Aide Training                                  11                                OEI-05-01-00030
          While not asked specifically about outdated practices, 2 out of 14 nurse aide trainers expressed
          frustration with outdated curricula and tests. These trainers complained about having to “teach
          to the test,” instructing nurse aides how to perform obsolete procedures so that trainees can
          pass exams. An example was a change in a State regulation with respect to the use of side
          rails; however, the change was not reflected in the nurse aide curriculum for that State. The
          trainers say they teach this procedure twice: once, so that the nurse aide can pass the test, and
          once, to allow nurse aides to adhere to State regulations.



Teaching methods are often ineffective, clinical exposure is
too short and unrealistic

Over half the States require more than 75 hours

          Although Federal law requires that State-approved nurse aide training programs consist of at
          least 75 hours of total instruction, 40 of 49 State NATCEP directors believe that             75
          hours of nurse aide training is not sufficient to prepare nurse aides for their first day on the job.
          Twenty-six States have already extended their nurse aide training programs beyond the 75
          hours required by Federal law. These State nurse aide training programs that were extended
          run from 76 hours to 175 hours (see Appendix D).

          Of the States that have minimum 75-hour programs, two-thirds of our State respondents
          believe that the number of training hours in their State is too low. These respondents report
          having difficulty justifying more hours to their State legislature when the Federal requirement is
          only 75 hours. Some of these respondents argue that nurse aides have to care for “terribly
          debilitated people” and require classroom instruction in many topics and resident care skills that
          may not be adequately addressed within 75 hours. As one NATCEP director said, “I believe it
          is unreasonable to expect students to assimilate all the material in 75 hours.”

Respondents seek improved clinical experience

          When asked how nurse aide training programs could be improved, the overwhelming response
          provided by our respondent groups was that nurse aides needed more and better clinical
          exposure. Nursing home supervisors (18 of 29) reported that nurse aides were not ready to
          begin work on the nursing home floor upon completion of nurse aide training, and needed more
          clinical exposure. In addition, 10 of 17 supervisors who hire nurse aides from community
          colleges and other non-facility based training sites said that these nurse aides were not
          adequately prepared for their first day on the job. We were



Nurse Aide Training                                    12                                  OEI-05-01-00030
          told that this may be due, in part, to difficulties that some private programs have in arranging
          clinical training at nursing homes.

          Nurse aides themselves reported dissatisfaction with their clinical experience during training.
          Fifty percent of nurse aide survey respondents, who reported not being satisfied with their
          clinical training, cited not enough time on the floor, a lack of “hands on” training and unrealistic
          training scenarios. During our in-person interviews with nurse aides and in the focus group,
          nurse aides frequently told us that they needed to experience, or at least witness, real-life
          scenarios during clinical training so that they would not be surprised or alarmed when something
          (such as a combative resident striking out at them) occurred on the job.

          Nurse aide training programs often do not expose students to the full range of resident care
          demands that they will experience in a nursing home environment. One nurse aide student told
          us that he was alarmed and felt unprepared when he had to change a resident after they had
          soiled themselves. We were repeatedly told that training focuses on acquiring skills needed to
          pass the State exam. Other skills needed for the job may receive only limited coverage during
          their initial training.

          Nurse aides also told us about ineffective teaching methods they encountered during their
          training. Participants in our focus group of 17 nurse aides told us that watching videos during
          training did not give them a realistic picture of the job. Once they started working, they realized
          there were far more demands than the videos portrayed. They described the videos as
          “sugarcoated” and “unrealistic,” often depicting a nurse aide “grooming a resident.” These
          nurse aides reported having a difficult time once they started a job, and realized what a full
          day’s work entails.

Early clinical exposure prepares and screens students

          Nearly all (26 of 29) nursing home supervisors stressed the importance of clinical training, and
          three supervisors specifically mentioned that an earlier introduction to the nursing home floor (or
          clinical skills) would greatly improve the preparedness of nurse aides. Nursing home
          supervisors believe that early exposure to resident care will help to screen out those nurse aide
          students who cannot handle the real-life stressful situations demanded by the job.

          Federal and State funds are wasted by the large numbers of students who are trained each year
          and drop out when exposed to the realities of the nurse aide job. Of the nursing homes we
          visited for this study, 12 conducted onsite training programs. The completion rates from their
          most recent nurse aide training class ranged from 20 to 100 percent. Four nursing homes
          reported that more than 70 percent of the students in their training



Nurse Aide Training                                   13                                 OEI-05-01-00030
          programs dropped out when exposed to the actual realities of caring for a nursing home
          resident. Three nursing homes reported that in earlier nurse aide training classes, no student
          completed the training course. It appears that early, realistic exposure to the job requirements
          helps to “weed out” nurse aide students, who may not be the most appropriate job candidates.

Respondents cite ineffective teaching methods and formats

          We heard complaints about large classrooms and limited or no exposure to the actual job
          requirements. Respondents felt that the following teaching methods and formats impeded nurse
          aide training:

          <           poor instructional videotapes and presentations
          <           too much medical technology jargon
          <           classes “taught over the heads” of students
          <           failure to recognize diversity or backgrounds of students, including language barriers
          <           emphasis on tasks, rather than interpersonal communication skills
          <           teaching skills that will not be used often
          <           lack of feedback on the quality of the program
          <           training which lacks geriatric framework
          <           one-size-fits-all approaches to teaching
          <           limited time to practice clinical skills

          The teaching of nurse aides varies by site. The actual instructor of the program may not be the
          person listed on the application to the State, and this person may not have any experience in
          adult education. While all States report that they periodically visit training sites, few reported
          that they do so to assess the quality of instruction. Only five States report that they make some
          effort to evaluate instructor or training effectiveness.

          In our discussions with nurse aides during our on-site visits, nurse aides said that they preferred
          instructors who included personal examples or anecdotes from their past nursing home jobs.
          Instructors who were willing to be candid, and those who did not mince unpleasant details were
          among those considered to be the most helpful.




Nurse Aide Training                                      14                                OEI-05-01-00030
In-service training may not be meeting Federal requirements

          We had difficulty determining whether nursing homes are meeting the Federal requirement that
          in-service training address areas of weakness for individual nurse aides. Federal in-service
          training regulations18 do not define how in-service training should be documented. Our review
          of in-service training at 29 nursing homes disclosed that training log documentation was not
          consistent across nursing homes. Only 8 of the 29 nursing homes we visited had documentation
          about why in-service sessions were held. We also learned that nursing homes sometimes
          conduct informal one-on-one or unit-specific training to immediately address any skill
          deficiencies, but this information was not regularly recorded in the in-service logs we reviewed.

          When we spoke with nurse aides in a focus group setting, we learned that in-service is not
          always looked upon favorably. During an in-depth discussion on the subject, almost half of the
          participants believed that in-service education sessions were not very helpful. They reported
          that in-service sessions were often repetitious and sometimes not relevant to everyday work
          situations. Furthermore, aides stated that in-service training occasionally consisted of reading
          and signing a bulletin board on a training topic (whether or not the information was understood),
          rather than absorbing the material through class participation.

          Long-term care ombudsmen and experts we spoke with also expressed concerns about
          in-service education. They reported that nursing home supervisors tend to view in-service
          sessions as cutting into resident care, and that nurse aides or nursing home staff do not view the
          classes as a way to improve their skills. Often, nurse aides are not covered on the floor when
          they attend in-service sessions, so they are thinking about the work waiting for them when they
          get back to the floor, rather than concentrating on the class material. Ombudsmen also stated
          that insufficient time is devoted to in-service training, which reduces its effectiveness.

Respondents offered suggestions for improving in-service training

          Nursing homes we visited highlighted the various methods they employ to improve in-service
          training for nurse aides:

          <	          Using educational tools, such as realistic videos, workbooks, interactive computer
                      programs, and games.




          18
               42 CFR §483.75


Nurse Aide Training                                     15                               OEI-05-01-00030
          <	          Having a system for documenting individual nurse aide training needs that indicates a
                      problem area, and outlines the intervention taken to remedy the problem. This system
                      is used when making decisions about in-service training needs.
          <           Providing crisis intervention training to help nurse aides deal with the emotional aspects
                      of the job.
          <           Having nurse aides participate in pharmaceutical in-service training to understand
                      behavior changes and side effects of drugs.
          <	          Involving other nursing home staff and healthcare professionals in in-service education.
                      For example, using the social service director to talk about residents’ psycho-social
                      needs, or having the long-term care ombudsman come in to talk about resident’s rights.
          <	          Having nurse aides involved in the planning and presentation of the in-service sessions
                      (peer teaching).
          <	          Having family members come and talk to aides about their concerns regarding care of
                      their relatives, and having nurse aides interact with families to help improve
                      communication.
          <	          Holding short in-service training every week (usually 15-30 minutes in length) or
                      holding impromptu in-service training for specific units and for specific staff.
          <           Offering in-service training on all shifts to accommodate nurse aide schedules.

          Nurse aides play an important role in the overall resident care team because they have the most
          interaction with the residents. Nursing homes differ as to the amount of resources they have to
          invest in in-service training, and not every home has the capacity to implement these best
          practices. Nevertheless, the nursing home supervisors and trainers we spoke with highlighted
          the above practices as creating positive changes for nurse aides working in their homes, and
          they thought other nursing homes might benefit from exploring similar practices for their staff.




Nurse Aide Training                                      16                                OEI-05-01-00030
                                CONCLUSION AND
                                RECOMMENDATION

          Responses from 29 nursing home supervisors, 14 nurse aide trainers, 5 long-term care
          ombudsmen, 3 academicians, and 5 experts (39 of all these respondents were licensed or
          registered nurses) show that the nurse aide training curriculum needs to be updated, and clinical
          experience needs to occur earlier and needs to be more realistic. Responses from nearly 1,000
          nurse aides and 48 State directors of nurse aide training programs also indicate that nurse aide
          training programs need improvement. Although the nursing home environment has changed
          considerably since OBRA 87 nurse aide training regulations were implemented, nurse aide
          training has not kept pace with nursing home resident needs.

          We are recommending that CMS:


Improve nurse aide training and competency evaluation
program requirements

          •	          Ensure that the content of the nurse aide training curriculum and testing (as described in
                      42 CFR Part 483) remains relevant to today’s complex resident care needs.
                      Strengthen nurse aide training by recognizing current nurse aide needs, and by
                      embracing modern technologies and equipment. Consider enhancing the
                      communication and interpersonal skills of nurse aides (i.e., by including training in time
                      management and teamwork).

          •	          Continue to work with States to assure that nurse aide training is effective and efficient.
                      This collaborative effort could include (but not be limited to) increasing the ratio of
                      clinical hours and ensuring that clinical experience occurs earlier in the training period, is
                      more realistic, and includes a full range of skills needed on the job.

          •	          Ensure that nursing homes are in compliance with in-service training requirements.
                      Revise 42 CFR §483.75 to include a requirement for nursing homes to document that
                      in-service training is conducted to address weaknesses identified in nurse aides’
                      performance reviews.




Nurse Aide Training                                        17                                 OEI-05-01-00030
                       AGENCY                     COMMENTS

        The draft of this report was reviewed by CMS, and the agency concurred with our
        recommendations. In concurring with our recommendations, CMS stated that the agency’s own
        independent study reached essentially the same conclusions as found in our study. The CMS
        reports that the agency has a contract in place to examine nurse aide training curriculum, content,
        and skills. The CMS also intends to develop specific policy and programmatic options for
        improving the administration of nurse aide training programs and for ensuring that nursing home
        in-service training complies with regulatory requirements.

        Some grammatical and technical changes were also made to this report following receipt of
        CMS’s comments. The full text of CMS’s comments can be found in Appendix A.




Nurse Aide Training                                 18                                OEI-05-01-00030
                                                                 APPENDIX A




                      Centers for Medicare & Medicaid Services
                           Comments on the Draft Report




Nurse Aide Training                     19                       OEI-05-01-00030
Nurse Aide Training   20   OEI-05-01-00030
Nurse Aide Training   21   OEI-05-01-00030
                                                                                                             APPENDIX B


                    Characteristics of Participating Nursing Homes

The tables on the following pages provide descriptive information about the nursing homes in the five
States that we visited during this inspection. The information was obtained using the Online Survey,
Certification, and Reporting System (OSCAR), except where noted. The deficiency information was
obtained from the results of each nursing home’s most recent survey, as reported in the OSCAR
database.

Table 1--Florida Nursing Homes In Our Sample

 Nursing Home Characteristics                    FL1            FL2           FL3              FL4           FL5         FL6

 Approximate Number of Nurse                     12             28            71               79            30          134
 Aides 19

 Nurse Aide Survey Response                      83%            54%           87%              84%           0%          7%
 Rate                                            (n=10)         (n=15)        (n=62)           (n=66)        (n=0)       (n=10)

 In-House Training Program                       No             Yes           No*              No*           No          No*

 Total Number of Certified Beds                  29             80            179              153           76          212

 Total Number of Residents20                     29             74            162              165           57          209

 Type of Ownership                               NFP-           FP-           NFP-             FP-           NFP-        NFP-
                                                 Corp           Corp          Corp             Corp          Corp        Corp

 Located Within a Hospital                       Yes            No            No               No            No          No

 Overall Deficiencies                            3              4             10               4             9           18

 Health Deficiencies                             2              3             5                4             8           13

 Date of Most Recent Survey                      9/26/01        7/19/01       12/15/00         6/22/01       7/3/01      6/14/01
* These nursing homes have a local technical college provide training, but the classes and clinical trainings are
conducted at the nursing home.



           19
                This information was provided to us by the nursing homes we visited.

           20
                This number reflects the resident census on the date of the nursing homes most recent survey.


 Nurse Aide Training                                                22                                       OEI-05-01-00030
Table 2--Louisiana Nursing Homes In Our Sample


 Nursing Home Characteristics                   LA1           LA2           LA3          LA4           LA5          LA6

 Approximate Number of Nurse                    53            125           20           61            36           14
 Aides 21

 Nurse Aide Survey Response Rate                23%           38%           35%          20%           67%          100%
                                                (n=12)        (n=48)        (n=7)        (n=12)        (n=24)       (n=14)

 In-House Training Program                      No            No            Yes          Yes           No           No

 Total Number of Certified Beds                 117           200           171          120           64           66

 Total Number of Residents22                    110           172           171          118           63           32

 Type of Ownership                              NFP-          NFP-          NFP-         FP-           NFP-         FP-
                                                Church        Church        Corp         Corp          Other        Corp
                                                Related       Related

 Located Within a Hospital                      No            No            No           No            No           Yes

 Overall Deficiencies                           5             9             9            19            15           1

 Health Deficiencies                            0             1             0            16            12           0

 Date of Most Recent Survey                     1/18/01       2/1/01        9/14/01      2/9/01        4/25/01      9/13/01




          21
             This information was provided to us by the nursing homes we visited. When they did not provide this
information, we used the number of nurse aide surveys sent to the nursing home.

          22
               This number reflects the resident census on the date of the nursing homes most recent survey.


Nurse Aide Training                                            23                                       OEI-05-01-00030
Table 3--Minnesota Nursing Homes In Our Sample


 Nursing Home Characteristics                   MN1           MN2            MN3         MN4          MN5          MN6

 Approximate Number of Nurse                    85            197            50          24           93           54
 Aides 23

 Nurse Aide Survey Response                     85%           62%            24%         25%          43%          61%
 Rate                                           (n=72)        (n=123)        (n=12)      (n=6)        (n=40)       (n=33)

 In-House Training Program                      No            Yes            No          No           No           Yes

 Total Number of Certified Beds                 303           559            93          54           200          134

 Total Number of Residents24                    301           555            75          52           193          126

 Type of Ownership                              NFP-          NFP-           FP-         FP-          FP-          FP-
                                                Church        Corp           Corp        Corp         Corp         Individual
                                                Related

 Located Within a Hospital                      No            No             No          No           No           No

 Overall Deficiencies                           1             0              7           4            5            0

 Health Deficiencies                            1             0              7           4            5            0

 Date of Most Recent Survey                     6/8/01        2/1/01         2/2/01      4/2/01       3/1/01       2/15/01




          23
             This information was provided to us by the nursing homes we visited. When they did not provide this
information, we used the number of nurse aide surveys sent to the nursing home.

          24
               This number reflects the resident census on the date of the nursing homes most recent survey.


Nurse Aide Training                                               24                                       OEI-05-01-00030
Table 4--New York Nursing Homes In Our Sample


 Nursing Home Characteristics                           NY1              NY2           NY3          NY4           NY5

 Approximate Number of Nurse Aides 25                   228              230           77           111           346

 Nurse Aide Survey Response Rate                        20%              1%            21%          55%           31%
                                                        (n=46)           (n=2)         (n=16)       (n=61)        (n=106)

 In-House Training Program                              Yes              No            Yes          Yes           Yes

 Total Number of Certified Beds                         561              1389          81           262           705

 Total Number of Residents26                            523              1366          82           256           686

 Type of Ownership                                      FP-              Govt-         NFP-         NFP-          NFP-
                                                        Individual       City/         Corp         Corp          Corp
                                                                         County

 Located Within a Hospital                              No               Yes           No           No            No

 Overall Deficiencies                                   2                10            5            6             2

 Health Deficiencies                                    1                2             3            3             1

 Date of Most Recent Survey                             5/5/00           1/31/00       7/17/01      8/15/01       1/24/01




          25
            This information was provided to us by the nursing homes we visited. When they did not provide this
information, we used the number of nurse aide surveys sent to the nursing home.

          26
               This number reflects the resident census on the date of the nursing homes most recent survey.


Nurse Aide Training                                              25                                       OEI-05-01-00030
Table 5--Washington Nursing Homes In Our Survey


 Nursing Home                           WA1             WA2           WA3               WA4           WA5           WA6
 Characteristics

 Approximate Number of                  85              24            37                73            102           160
 Nurse Aides 27

 Nurse Aide Survey                      22%             36%           51%               5%            0%            22%
 Response Rate                          (n=19)          (n=15)         (n=19)           (n=4)         (n=0)         (n=35)

 In-House Training Program              No              Yes           No                No            No            Yes

 Total Number of Certified              22              117           129               135           190           215
 Beds

 Total Number of                        144             70            94                124           168           200
 Residents28

 Type of Ownership                      NFP-            FP-           FP-               FP-           FP-           NFP-
                                        Other           Corp          Partnership       Corp          Corp          Church
                                                                                                                    Related

 Located Within a Hospital              No              No            No                No            No            No

 Overall Deficiencies                   17              15            10                29            14            14

 Health Deficiencies                    14              12            10                24            14            6

 Date of Most Recent                    10/16/00        5/24/01       5/21/01           8/31/01       4/24/01       11/21/00
 Survey




          27
            This information was provided to us by the nursing homes we visited. When they did not provide this
information, we used the number of nurse aide surveys sent to the nursing home.

          28
               This number reflects the resident census on the date of the nursing homes most recent survey.


Nurse Aide Training                                              26                                        OEI-05-01-00030
                                                                                       APPENDIX C




                       Demographics of Nurse Aide Respondents

          The following demographic information characterizes the nurse aides who responded to our
          survey.


                      Characteristic                  Data Point       Number of
                                                                       Respondents

                      Age (mean)                      36               793

                      Gender                          84% female       859

                      High school graduation or       92%              820
                      greater

                      Hourly wage (mean)              $10.33           751

                      Minorities                      65%              775

                      Household income of $15,000     32%              631
                      or less

                      Working as a nurse aide for 3   70%              868
                      years or more




Nurse Aide Training                                    27                             OEI-05-01-00030
                                                                             APPENDIX D




                             Hours of Training by State

      State                      Minimum Training Hours        Minimum Clinical Hours
                                        (Total)

      Alaska                                 140                            80

      Alabama                                 75                            16

      Arkansas                                75                            16

      Arizona                                120                            16

      California                             150                           100

      Colorado                                75                            16

      Connecticut                            100                            50

      District of Columbia                   120                       not specified

      Delaware                                75                           37.5

      Florida                                120                            40

      Georgia                                 85                            16

      Hawaii                       did not respond to survey     did not respond to survey

      Iowa                                    75                            30

      Idaho                                  120                            40

      Illinois                               120                            40

      Indiana                                105                            75

      Kansas                                  90                            45

      Kentucky                                75                            16

      Louisiana                               80                            40

      Massachusetts               did not respond to survey    did not respond to survey


Nurse Aide Training                          28                             OEI-05-01-00030
                                                               APPENDIX D



                       Hours of Training by State

      State                Minimum Training Hours   Minimum Clinical Hours
                                  (Total)

      Maryland                      100                       40

      Maine                         150                       50

      Michigan                       75                       16

      Minnesota                      75                      37.5

      Missouri                      175                      100

      Mississippi                    75                       16

      Montana                        75                     25-30

      North Carolina                 75                       16

      North Dakota                   75                       16

      Nebraska                       76                  not specified

      New Hampshire                 100                       60

      New Jersey                     90                       40

      New Mexico                     75                  not specified

      Nevada                         75                  not specified

      New York                      100                       30

      Ohio                           75                       16

      Oklahoma                       75                       16

      Oregon                        150                       75

      Pennsylvania                   75                      37.5


Nurse Aide Training                 29                        OEI-05-01-00030
                                                              APPENDIX D



                       Hours of Training by State

      State                Minimum Training Hours   Minimum Clinical Hours
                                  (Total)

      Rhode Island                  100                       20

      South Carolina                 80                       40

      South Dakota                   75                       16

      Tennessee                      75                       35

      Texas                          75                       24

      Utah                           80                       16

      Virginia                      120                       40

      Vermont                        75                       16

      Washington                     85                       50

      Wisconsin                      75                       16

      West Virginia                 120                       55

      Wyoming                        75                       48




Nurse Aide Training                 30                        OEI-05-01-00030
                              ACKNOWLEDGMENTS
This report was prepared under the direction of William C. Moran, Regional Inspector General for Evaluation and
Inspections in Chicago, Brian T. Pattison, Regional Inspector General for Evaluation and Inspections in Kansas City,
and Natalie Coen, Deputy Regional Inspector General in Chicago. Other principal Office of Evaluation and
Inspections staff who contributed include:


John Traczyk, Project Leader                                  Stuart Wright, Director, Medicare and
Dennis Tharp, Lead Analyst                                                           Medicaid Branch
Tricia Fields, Program Analyst                                Sandy Khoury, Program Specialist
Erin Guay, Program Analyst                                    Bambi Straw, Program Specialist

                                                              Barbara Tedesco, Mathematical Statistician





                      To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
                            Reports are also available on the World Wide Web at our home page address:


                                                    http://oig.hhs.gov




Nurse Aide Training                                              31                                         OEI-05-01-00030
